AUDIT OF NARA'S WORK-AT-HOME SYSTEM 


        OIG Audit Report No. 09-15 





            September 29, 2009 

                                                                              OIG Audit Report No. 09-15


EXECUTIVE SUl\1MARY

The National Archives and Records Administration (NARA) Office ofInspector General
(OIG) completed an audit ofNARA's Work at Home System (WAHS). The WAHS was
initiated to enhance NARA's remote access capabilities while satisfying the Office of
Management and Budget (OMB) mandate for two-factor authentication l . During this
audit, we assessed NARA's efforts in developing this system to determine whether the
W AHS was developed in accordance with NARA requirements and would meet OMB
technical requirements.

In June 2006, OMB issued memorandum M-06-16, Protection ofSensitive Agency
Information, requiring all departments and agencies to only allow remote access with
two-factor authentication where one of the factors was proved by a device2 separate from
the computer gaining access. The intention ofthis mandate was to ensure additional
controls were in place when information, particularly Personally Identifiable Information
(PH), is accessed from outside of an agency's physical location. Additional controls are
needed to compensate for the lack of physical security controls, such as locks, badges,
and security guards, which are present at agency locations. This safeguard along with
others were to be reviewed and in place within 45 days ofthe memorandum. NARA had
been working on the W AHS since 2007 to meet this two-factor authentication mandate.

Our review found that because of the significant delay in the implementation of the
WAHS, NARA was not in compliance with the two-factor authentication requirements
mandated by OMB. The WAHS was a high-priority project to be completed within a
very short timeframe. However, the requirements ofNARA's IT Investment
Management Process 3 were not followed resulting in significant program delays, cost
overruns, and failure to meet OMB defined requirements. This overarching condition has
left NARA information vulnerable, restricted telecommuting, and impacted NARA's
budget through cost overruns and lease of equipment to include tokens, at a cost of over
$200,000, which could not be deployed. Further, by not fully defining system
requirements, critical technical challenges still needed to be addressed before the system
could be fully operational and meet the intent of OMB requirements. Consequently, a
system originally estimated to cost $500,000 has now escalated to over $1.23 million and
is still far from full implementation.

Our audit identified several improvements to be made in the development and
deployment of the W AHS. We made seven recommendations to ensure the system meets
OMB requirements and improves the security of remote access to PH and NARA
proprietary information.



1 An authentication factor is a piece of information and process used to authenticate or verify a person's 

identity requesting access. Two-factor authentication is a system wherein two different factors are used to 

authenticate. Using two factors as opposed to one delivers a higher level of authentication assurance. 

2 Examples of separate devices include USB tokens and smart cards. 

3 NARA's IT Investment Management Process is detailed in Interim Guidance 801-2, Review ofIT 

Investments. 


                                                  Page 1
                               National Archives and Records Administration
                                                                        OIG Audit Report No. 09-15


BACKGROUND

Effective project management is essential in obtaining the right equipment and systems to
accomplish NARA's mission. Specifically, system development projects must be
managed and tracked to ensure cost, schedule, and performance goals are met. If systems
are not adequately and properly managed, NARA could end up with overpriced systems
that do not meet NARA requirements or mission.

The OIG has repeatedly found that NARA systems are not always developed in
accordance with NARA guidelines; system projects are not always effectively managed
and monitored; and proper system acceptance activities may not occur prior to the agency
accepting delivery of a system. As a result, the OIG has listed project management
and system development activities as one ofNARA's top ten challenges noting that the
agency is challenged with planning projects, developing adequately defined
requirements, analyzing and testing to support acquisition and development of systems,
and oversight to ensure effective or efficient results within costs.

The Office of Information Services (NH) is responsible for administering NARA's
information resources management programs, projects, processes, and infrastructure,
including the overall operation ofNARA's Information Technology (IT) Investment
Management process. Within NH, the Capital Planning and Investment Process (CPIC)
is directed by IT Policy and Administration Division (NHP). NHP ensures that all
NARA IT initiatives are properly planned, costed, reviewed, and approved by the senior
staffbefore significant funds are expended. The proposals and product plans required to
complete this process are described in NARA Interim Guidance 801-2, Review of
Information Technology Investments (NARA 801).

Also within NH, the Systems Development Division (NHV) provides project
management leadership for the requirements collection, development and major
enhancements ofIT applications and systems. NHV Project Managers are responsible
for cost, schedule, quality, communications, and risk management of these projects.
Project Managers are also responsible for ensuring new IT systems or major
modifications to IT systems conform to the Systems Development Lifecycle Handbook
and the Systems Development Guidelines.

The W AHS, which consisted of several commercial-off-the-shelf (COTS) software
packages, was expected to implement an IT infrastructure system that would enable
secure, remote access to selected General Service Systems (GSS) that reside on
NARANet to include: GroupWise e-mail access, file access to shared and personal
drives, access to NARA@Work content, access to Microsoft Office 2003 applications,
and access to the Internet. System capabilities included the need to (1) support the Work­
at-Home initiative as part ofthe agency's Comprehensive Emergency Management
(CEMP) and Continuity of Operations Plan (COOP) activities, and (2) implement two­
factor authentication as mandated by the OMB Memorandum 06-16, Protection of
Sensitive Agency Information.



                                            Page 2
                         National Archives and Records Administration
                                                                    OIG Audit Report No. 09-15


OBJECTIVE, SCOPE, METHODOLOGY

The objective of this audit was to determine whether the WAHS was developed in
accordance with NARA requirements and efficiently and effectively met the
requirements of the OMB memorandum M -06-16, Protection ofSensitive Agency
Information. Specifically, we sought to determine whether the project proposal, plan, and
approval were completed in accordance with NARA requirements and whether technical
requirements were developed to meet OMB requirements for remote access. The audit
was limited to the development, testing, pilot, and implementation of the WAHS.

We examined applicable laws, regulations, and NARA guidance, including (a) OMB
Memorandum M-06-16, Protection ofSensitive Agency Information; (b) Clinger-Cohen
Act; (c) Homeland Security Presidential Directive (HSPD) -12; (d) National Institute of
Standards and Technology (NIST) Special Publication 800-53, Recommended Security
controls for Federal Information Systems; (e) Federal Information Processing Standards
Publication (FIPS PUB) 140-2, Security Requirementsfor Cryptographic Modules; (f)
NARA Interim Guidance 801-2, Review ofInformation Technology Investments; and (g)
Supplement to NARA 801-2, System Engineering Capital Planning Investment
Management Decide Process.

To accomplish our objective, we met with the WAHS Project Manager and other NARA
officials involved with the WAHS project. We reviewed the WAHS project proposals
and other system development documents such as the Concept of Operations and Initial
Requirements Specification, Design Specification, and monthly Capital Planning and
Investment Process reports. We also reviewed Requests for Changes (RFCs) and
Requests for Work (RFWs) related to the WAHS and meeting minutes of various NARA
IT committees.

Our audit work was performed at Archives II in College Park, MD between December
2008 and June 2009. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




                                            Page 3
                         National Archives and Records Administration
                                                                     OIG Audit Report No. 09-15


FINDINGS AND RECOMMENDATIONS

NARA Was Not Compliant with OMB Mandated Two-Factor Authentication

NARA was not in compliance with the two-factor authentication requirements for remote
access mandated by OMB in June 2006. This occurred because NARA failed to meet
several established deadlines to implement the WAHS, which was intended to meet the
OMB mandate. Consequently, NARA's email system remained vulnerable to network
and hacker attacks and NARA was unable to protect PH and NARA proprietary
information from being distributed or compromised over its network and email system.

In June 2006, OMB issued memorandum M-06-16, Protection ofSensitive Agency
Information, requiring all departments and agencies to only allow remote access with
two-factor authentication where one of the factors was provided by a device, such as a
RSA token, separate from the computer gaining
access. The specific intent of this mandate was to
compensate for the protections offered by the
physical security controls when information was
removed from or accessed outside of the agency
locations. This safeguard along with others were to
be reviewed and in place within 45 days of the June              Example of a RSA Token
23, 2006 memorandum.

At the time of our audit, NARA was not in compliance with the two-factor authentication
requirements for remote access mandated by OMB. NARA did not have an enterprise­
level remote access solution in place for its Work-at-Home or telework staff and NARA
employees were unable to access NARA's intranet or shared drives from remote
locations. Instead, NARA had two remote access solutions in place; however, neither
were designed or priced to provide remote access for the entire NARA work force. Their
purpose and use were intended for restricted access by NARA IT operations staff and
specific IT operations contract personnel for purposes of keeping the NARA information
infrastructure, application servers, and other components operational. ----------------------­

-------------Redacted pursuant to FOIA Exemption "high" b(2)--------------------------------­


In 2007, NARA began developing W AHS to meet the OMB requirement for two-factor
authentication. However, due to a demonstrated lack of sound project management, this
system has not been fully implemented. The Project Plan schedule showed that
the W AHS would be deployed in September 2008, but the project did not meet this
deadline. In an updated schedule, the deployment ofthe W AHS is schedule to be
completed in December 2009, 15 months after the original deployment date. Other
deadlines in the project have been missed, including deadlines relating to user testing.
Originally, WAHS was to be piloted with an advanced testing group of 50 NARA users
by April 30, 2008; however, this was not completed until September 2008 and only 18
testers were included. Also, in a revised schedule, additional NH user testing was to be


                                             Page 4
                          National Archives and Records Admjnistration
                                                                           OIG Audit Report No. 09-15


completed by January 7, 2009 and testing of users outside ofNH was to be completed by
March 19,2009. However, the additional NH testing was not completed until February
20,2009 and as of May 21,2009, testing outside ofNH had not been completed.
Successful user testing is important because it ensures the system meets defined
acceptance criteria and operational objectives.

Without the W AHS in place, NARA continues to manage its remote access systems in
their current state and is unable to provide two-factor authentication for remote access.

--------------------- Redacted pursuant to FOIA Exemption "high" b(2)-----------------------­



Additionally, by not having an enterprise-level remote access solution in place, telework
capabilities for NARA employees have been limited. NARA has over 2,700 employees
who are eligible to work from home. However, some NARA employees were not able to
work from home because of the lack of a secure remote access system. As the workforce
continues to move away from traditional work times and locations, more employees will
require easy, regular access to email and calendars. Further, the Office of Personnel
Management has emphasized the importance of being telework ready, in order to
continue essential operations during all phases of a pandemic influenza. Specifically,
agencies need to implement and maintain a robust IT system with the necessary
infrastructure including, bandwidth and VPN access to accommodate a sudden spike in
remote usage of systems.

Finally, during the audit, NARA's current Nortel Virtual Private Network4 (VPN)
solution suddenly experienced an outage. By not fully deploying the W AHS, the
replacement for the Nortel VPN, NARA did not have a remote access system to replace -­
- Redacted pursuant to FOIA Exemption "high" b(2)---. Thus, NARA employees
continued to not have secure remote access capabilities and -------------- Redacted
pursuant to FOIA Exemption "high" b(2)---------------.

Recommendation 1

We recommend the CIO ensure a system is put in place which meets the requirements for
remote access with two-factor authentication.

Recommendation 2

We recommend the CIO discontinue or phase out any remote access which does not
require two-factor authentication.

Recommendation 3

4The Nortel VPN provides remote access capabilities for some NARA users. This access requires a
properly configured NARA-issued laptop. The WAHS was developed to replace the Nortel VPN and
greatly enhance the security ofNARA's remote access.

                                               Page 5
                            National Archives and Records Administration
                                                                    OIG Audit Report No. 09-15




We recommend the CIO monitor the W AHS to ensure the established milestones and
deadlines are met.

Management Comment(s)

Management concurred with recommendations.


NARA Did Not Follow IT Investment Management Requirements

In developing the W AHS, NARA did not follow all of the requirements ofNARA's IT
Investment Management Process. This occurred because management did not enforce
the use ofthe process outlined in NARA 801 and the project proposal was not verified to
ensure that proposal information was complete and adequately supported. Consequently,
the approved solution was not adequately planned which contributed to the project falling
behind schedule and wasting limited resources. Further, alternatives were not completely
vetted prior to the approval of the W AHS and NARA may not have chosen the best
alternative for remote access with two-factor authentication.

The Clinger-Cohen Act required each agency to design and implement a process for
maximizing the value and assessing and managing the risks of their information
technology acquisitions. The act also required each agency to establish effective and
efficient capital planning processes for selecting, managing, and evaluating the results of
all of its major investments in information systems. To meet the requirements of the
Clinger-Cohen Act, NARA developed its IT Investment Management Process, which was
documented in NARA's Interim Guidance 801-2, Review ofInformation Technology (IT)
Investments (NARA 801). One of the phases of this process is the Decide Process, which
is described in the supplement to NARA 801, System Engineering Capital Planning
Investment Management Decide Process. The Decide Process was intended to help
ensure NARA (1) selects the best mix ofIT investments to support NARA's strategic
goals and (2) thoroughly analyzes an investment before a significant amount of resources
are expended for those investments.

In the Decide Phase, projects being proposed for funding are reviewed and initially
screened to (1) eliminate proposals that do not warrant further development and (2)
ensure that full proposals are reviewed at the most appropriate organizational level.
Critical aspects of this phase are management understanding, participation, and decision­
making driven by accurate, up-to-date data, and an emphasis on using IT to efficiently
achieve strategic goals. Proposals that pass the screening process have their costs,
benefits, and risks analyzed in-depth. This analysis is documented in a "Full Proposal".
In general, Full Proposals assemble and analyze data collected and documented in system
development lifecyc1e deliverables, such as Concept of Operations, Requirements
Document, and Analysis of Alternatives. The supplement to NARA 801 provides the
template and details the requirements for a Full Proposal.



                                            Page 6
                         National Archives and Records Administration
                                                                            OIG Audit Report No. 09-15


We found the W AHS was not developed or approved in accordance with these Federal
and NARA requirements. Particularly, we noted deficiencies in the project proposal, risk
assessment, approval process, and authorized spending.

                                          Project Proposal

Prior to the approval ofthe WAHS, a project proposal was prepared using the appropriate
template in NARA 801. However, the project proposal did not include all necessary
information and in some cases misleading or incorrect information was included in the
proposal. The following critical information was missing in the project proposal:

    • 	 The Design Overview section did not describe a technically feasible design,
        which could be accomplished within the time constraints of the project.
    • 	 The Assumptions and Constraints section did not address critical planning items
        such as scope, schedule, workload, dependencies, technology, users, stakeholders,
        interfaces, funding, and security.
    • 	 Security requirements and costs were not identified and integrated into the overall
        lifecycle cost of the investment and included in the investment's Cost Benefit
        Analysis (CBA) worksheet.

Misleading or incorrect information was also included in the Analysis of Alternatives,
Project Benefits, and Acquisition Strategy sections. Specifically, the Analysis of
Alternatives section stated that the selected alternative was "already proven and tightly
integrated with the Citrix Access Suite currently in use at NARA". According to the
Project Sponsor, this was based on the results of two other organizations (U.S. Patent
Trade Office and Department of Treasury) that had successful results using Citrix and
RSA tokens. However, both of these organizations had Microsoft exclusive operating
environments, whereas NARA has a mixture of Novell and Microsoft operating
environments. NARA's Novell system is not widely used in industry or government and
offices, such as the Presidential Libraries, often run into interoperability problems with
their strategic partners. Therefore, the statement could have been misleading to decision
makers selecting the best alternative.

Also, in the discussion of Project Benefits, it stated NARA must implement the WAHS
capability to satisfy an OMB mandate and comply with Homeland Security Presidential
Directive - 125 (HSPD-12). However, the selected alternative did not meet the
requirements of HSPD-12, which mandated the use of a Personal Identity Verification
(PIV) to gain both physical and logical access to federally controlled information
systems.

Finally, the acquisition strategy section of the project proposal should discuss how
competition will be sought, promoted, and sustained. However, competition was not
addressed in this section of the WAHS proposal. Instead, the proposal only stated that

SThe purpose of this directive was to enhance security, increase Government efficiency, reduce identity
fraud, and protect personal privacy by establishing a mandatory, Government-wide standard for secure and
reliable forms of identification issued by the Federal Government to its employees and contractors.

                                                Page 7
                             National Archives and Records Administration
                                                                               OIG Audit Report No. 09-15


two existing contracts would be used to address the scope of this effort. This approach
may have been acceptable; however, additional funding, totaling over $190,000, was
required for one of the contractors to complete the needed tasks. This additional funding
was not anticipated and was provided to the contractor through Technical Direction
Letters, with a total ceiling price of $427,324. Therefore, the acquisition strategy for the
W AHS did not thoroughly seek, promote, or sustain competition.

Having complete and accurate information in the project proposal is crucial because,
once a project proposal has been reviewed and approved, it becomes the Product Plan.
This plan should incorporate (1) changes recommended as part of the proposal approval
process and (2) the milestone review schedule established by the CIO.

                                             Risk Assessment

The overall W AHS project risk assessment was also incorrect. According to NARA
guidance, the highest risk factor in the areas of Technical Deployment, IT Architecture
Impact, and Legal Regulations determines the overall project risk. Originally, the WAHS
project was given a medium risk rating, even though its Technical Deployment6 was rated
as high. Since the WAHS was considered an enterprise-wide project, this rating was
appropriate. Therefore, the W AHS should have been rated as a high risk project.

                                            Approval of Project

Because of the incorrect project risk rating, the W AHS proposal was not submitted to
Information Technology Executive Committee (lTEC) for formal discussion, review, or
scrutiny. ITEC was established to set the overall direction and polices governing
NARA's information technology infrastructure and is responsible for prioritizing and
advocating the rollout of major information technology initiatives. Also, as Chairman of
ITEC, the Archivist or designated representative, is responsible for approving changes in
direction or adoption of emerging technologies. According to the ITEC Secretary, any
proposal with a high risk rating is required to be approved by ITEC. However, since the
initial W AHS project proposal was incorrectly rated as "medium", the W AHS was not
formally reviewed, scrutinized, and approved by the members of ITEC prior to its
approval.

After the W AHS proposal was approved, senior NH officials were asked if other
alternatives were considered for the WAHS. The response was that no other alternatives
were considered because the cost factor only approached $500,000. This was based on
incorrect information or a misconception given the project's three year outsourcing costs
totaled over $700,000 and the ten year total costs were over $5.2 million.




                                             Project Spending

6   Technical deployment refers to the scope of project use from an organizational viewpoint.

                                                   Page 8
                                National Archives and Records Administration
                                                                    OIG Audit Report No. 09-15




Finally, NARA's Decide Process requires projects to be thoroughly analyzed before a
significant amount of resources are expended. The pilot of the W AHS was authorized to
spend up to $150,000. However, prior to the official approval of the WAHS, over
$500,000 had already been spent on the project.

These deficiencies occurred because the controls outlined in the NARA 801 were not
effectively implemented or enforced. Not only did the Proposal Development Team
develop an incomplete project proposal, but NARA management did not enforce the
process outlined in NARA 801 to ensure that an adequate project proposal was developed
and approved. The proposal was reviewed and approved by the Architecture Review
Board (ARB) and the Business Architecture Working Group (BAWG) even though some
members ofthe BAWG had not completed their review. Also, since the project was
assigned an incorrect risk rating, it was not reviewed at the most appropriate organization
level. The WAHS was not formally discussed at an ITEC meeting until after it was
approved. Further, during these reviews, emphasis was not placed on finding or
considering other alternatives; the only option presented throughout the process was
approved. Thus, it appeared that management did not thoroughly review and question the
project, prior to its approval.

Additionally, the project proposal was not verified, as required by NARA 801, to ensure
it was adequately supported and the Decide Process was being executed as intended.
During the time the W AHS proposal was developed and approved, the position for the
NHP Capital Planning Branch (NHPC) Chief was vacant. The NHPC Branch Chief is
responsible for documenting, executing, reporting, and managing IT Capital Planning
functions as defined in NARA 801. With this position vacant and limited personnel in
NHP, management had no assurance that the proposal data was adequately supported and
the Decide Process was followed as intended.

Another NARA 801 control not properly followed was the preparation and review of
monthly status reports. These reports were prepared by the project manager and were
intended to provide information on accomplishments, problems encountered, actions
required, schedule, costs, risks, and action items. In addition, these reports should be
used to understand the condition ofprojects and change the course of a project when
necessary. However, the monthly reports for the W AHS provided little to no information
regarding the project and its status. Further, problems, such as missed deadlines,
additional risk factors, extra project spending, were not always identified or corrected
during the review of these reports.

By not following NARA 801 requirements, the WAHS was not adequately planned
causing the project to fall behind schedule and waste limited resources. Since the
approved project proposal becomes the Product Plan, the deficiencies in the proposal
were carried forward to the Project Plan and the project quickly fell behind schedule.
Originally, the WAHS was to be deployed by September 2008; however, this deadline
was not met due to additional technical requirements associated with the Novell Identify



                                            Page 9
                         National Archives and Records Administration
                                                                             OIG Audit Report No. 09-15


Management (IDM) drivers that were not identified during project planning. This also
led to the break-fix7 which was discovered during the production testing.

By not meeting the deployment deadline, the W AHS wasted limited resources. For
example, in April 2008 NARA paid the full yearly maintenance cost of$215,000 for
3,000 RSA tokens; however, only a small portion (approximately 50) of these tokens
were distributed and used as part of user testing. In June 2009, NARA had planned to
pay another $235,000 for the renewed maintenance ofthese tokens even though the
system will not be fully deployed until at least December 2009. Since our audit,
management has lowered the number of tokens needed to 1,500 decreasing the yearly
maintenance cost to $143,100.

Furthermore, by not following established requirements, alternatives were not completely
vetted prior to the approval of the WAHS. The impact of not fully vetting significant
enterprise architecture, information technology infrastructure and applications
developments can be profound. Specifically, NARA may not have chosen the best option
and limited resources could have been put to better use. One of the discounted
alternatives would have met the requirements ofHSPD-12, but was not chosen because it
would have taken longer to implement. Instead, the selected alternative, which does not
meet HSPD-12 requirements and was only supposed to cost $500,000, has now expended
over $1.23 million and still is not operational.

Recommendation 4

We recommend the CIO ensure that the deficiencies noted in the project plan are
corrected.

Recommendation 5

We recommend the CIO reevaluate the WAHS to ensure it is the best alternative to
provide remote access with two-factor authentication.

Recommendation 6

We recommend the CIO enhance the controls in the IT Investment Management Process.
With the issuance of the new NARA 801, we recommend the CIO specify who is
responsible for verification activities in the IT Investment Management Process and
controls to correct unfulfilled business requirements and variances in costs and schedule.

Management Comment(s)

Management concurred with recommendations.



7 A break-fIx occurs when a supporting technology fails in the normal course of its function and needs
intervention by some support organization.

                                                 Page 10
                              National Archives and Records Administration
                                                                              OIG Audit Report No. 09-15


Major Technical Challenges Remain

Even though the W AHS reached the deployment stage, major technical challenges
remained to efficiently and effectively meet all OMB and NIST requirements. This
occurred because the WAHS requirements were not adequately defined prior to the
development of the WAHS. ---------------------- Redacted pursuant to FOIA Exemption
"high" b(2)------------------------------------------------------------------.

In addition to requiring two-factor authentication, OMB memorandum M-06-16 required
agencies to take additional actions for the protection ofPIl, including:

     • 	 Implement NIST Special Publication 800-53 security controls requiring
         authenticated virtual private network (VPN) connection for remote access to PII.
     • 	 Implement NIST Special Publication 800-53 security controls ensuring that
         information is transported only in encrypted form for instances where PII is
         transported to a remote site.

Since the NARANet contains PII and other proprietary information, these requirements
should have been met by the WAHS, by requiring an authenticated VPN connection and
ensuring information is transported in an encrypted form. The specific intent of these
requirements is to compensate for the physical security controls not present when
sensitive information is removed or accessed from outside of the agency location. -------­
-------------------- Redacted pursuant to FOIA Exemption "high" b(2)------------------------­




While the WAHS was designed to meet the OMB two-factor authentication requirement,
we found major technical challenges remain for the W AHS to efficiently and effectively
meet all OMB and NIST security requirements for remote access. Specifically, the
W AHS has not fully demonstrated how it will meet the requirements associated with
VPN connections, encryption, monitoring and reviewing remote access connections, and
token distribution.

                                            VPN Connection

At the time of our audit, questions remained in whether the VPN connection for the
W AHS would meet all security requirements. The W AHS included two separate types of
remote access for NARA users. One type provided remote access to virtualized
applications8 with selected functionalities ofNARANet, including access to email, shared


8 Virtualized applications provide remote users controlled access to selected applications and data. When a
remote user logs into the remote access system, they are presented with the same desktop setup they
normally see on their office computer thereby creating a virtual office desktop. The server "virtualizes" the
desktop by passing only screen pixels, keystrokes, and mouse movements over the wire to the remote
computer instead of the actual data itself. The process is transparent to end users and their experience is
the same as if they were using desktop applications locally on their computer.

                                                 Page 11
                              National Archives and Records Administration
                                                                            OIG Audit Report No. 09-15


and personal drives, and Microsoft Office applications. The other was to provide Secure
Sockets Layer9 (SSL) VPN capability to selected remote users. The initial design
intended to only provide this secure VPN connection to certain users to perform system
administration functions remotely. Later, it was decided to extend this VPN capability to
additional W AHS users, who needed to access systems beyond email, shared and
personal drives, and Microsoft Office applications. However, these users had to use a
NARA-issued laptop, even though this was not specified in the original requirements for
the W AHS. NARA has over 2,700 employees who are eligible to work from horne and it
may not be efficient and is an undetermined cost to require each ofthese employees to
use a NARA-issued laptop for remote access, especially considering most do not work
from horne on a regular basis.

Further, management had not yet determined what interrogation factor should be used to
verify if a NARA furnished laptop is connecting to the Access Gateway to allow VPN
connectivity. An interrogation factor allows for the WAHS to establish an authenticated
connection, as required by NIST. However, a determination had not been made as to
what attribute would be common to all versions of the NARA baseline image, yet unique
to NARA computers for authentication. Also, even though the WAHS had reached the
deployment phase, the VPN capability had not been tested by a group of users.
Therefore, NARA lacked assurance that the W AHS would meet the security requirements
for VPN connections.

                                              Encryption

For instances where PH is transported to a remote site, agencies were to implement
security controls ensuring information is transported only in encrypted form. These
controls included the use of a validated cryptography.lO NIST provides standards that
should be used by Federal organizations when implementing cryptographic-based
security systems to protect sensitive or valuable data. These standards are documented in
Federal Information Processing Standards Publication (FIPS PUB 140-2), Security
Requirements for Cryptographic Modules and are applicable to all Federal agencies that
use cryptographic-based security systems. In addition, NIST requires organizations to
authorize, monitor, and control all methods of remote access to the information system.
Specifically, organizations should employ automated mechanisms to facilitate the
monitoring and control of remote access methods; use cryptography to protect the
confidentiality and integrity of remote access sessions; and control all remote accesses
through a limited number of managed access control points.

However, it is uncertain whether the WAHS will meet each of these requirements.
Specifically, procedures have not been put in place to monitor the effectiveness of
installed encryption technologies. Also, at the time of the audit, a decision had not been


9 Secure Sockets Layer (SSL), is a cryptographic protocol that provides secure communications on the
Internet for such things as web browsing, e-mail, Internet faxing, instant messaging, and other data
transfers.
10 Cryptography deals with the transformation of ordinary text (plaintext) into coded form (ciphertext) by
encryption and transformation of ciphertext into plaintext by decryption.

                                                 Page 12
                              National Archives and Records Administration
                                                                            OIG Audit Report No. 09-15


made on how to recognize an approved NARA laptop or user and an unapproved NARA
laptop or user. Further, in order for encryption to be successful, both ends ofthe
connection must be determined to be secure. However, NARA had not developed a way
to validate that a secure internet browser was being used by the remote user. These
encryption technologies and controls provide agencies with a method of protecting
sensitive information and can reduce the occurrence of data breaches.

                                         Token Distribution

At the time of our audit, the W AHS did not have any procedures in place to manage,
assign, distribute, and revoke RSA tokens for users. NIST requires that the organization
manages information system authenticators (tokens) by establishing administrative
procedures for initial authenticator distribution, for lost/compromised, or damaged
authenticators, and for revoking authenticators. These procedures need to be established
prior to the W AHS being rolled out enterprise wide. Of particular importance are the
responsibilities of managing the tokens at the NARA field offices. If not properly
accounted for, these tokens could end up in the hands of someone who is not authorized
to access the W AHS.

                                      Other Security Concerns

During the audit, we noted that a point of entry into NARANet was established for
contractors to remotely manage one of the W AHS servers. NIST requires organizations
to authorize, monitor, and control any remotely executed maintenance and diagnostic
activities. However, controls still needed to be established for this connection.
Originally, the system design did not include a firewall to protect NARANet, but a
firewall was later added. The connection was not identified or detailed in the Security
Plan and records were not maintained for all remote maintenance and diagnostic
activities, as required by NIST. In addition, a SAS 70 11 audit had not been completed for
the contractor. The SAS 70 audit process includes an in-depth audit examination of the
effectiveness of a service organization's internal controls. Benefits of a SAS 70 audit
include the following:

    • 	 Assurance that internal controls within the data center are in place, are suitably
        designed, and are operating effectively;
    • 	 Assurance that physical access, IT infrastructure, data and network are secured
        against certain threats; and
    • 	 Assurance that the data center's control policies and procedures have been
        evaluated and reviewed by an independent third party.

The OMB and NIST requirements were not met because system requirements were not
adequately defined prior to the start of the project. The Design Specification listed the
appropriate NIST controls that were applicable to the WAHS. However, plans were not
completed to discuss how each of these controls would be addressed and implemented.

11 Statement on Auditing Standards No. 70, Service Organizations, can be helpful in examining the quality
of a potential business partner's information security controls.

                                                Page 13
                             National Archives and Records Administration
                                                                         OIG Audit Report No. 09-15


For example, the Concept of Operations states the system shall exchange all data using an
encrypted link, but did not discus how these would be accomplished. The technical
aspects of the WAHS were not fully developed prior to the approval and development of
the project.



-------------------------- Redacted pursuant to FOIA Exemption "high" b(2)------------------­




Recommendation 7

We recommend the CIO ensure the WAHS meets OMB and NIST requirements prior to 

full implementation. 


Management Comment(s) 


Management concurred with recommendation. 





                                             Page 14
                          National Archives and Records Administration
                ·National Archives and Records Administration
                                                                                       8601 Adelphi Road
                                                                      College Park, Maryland 20740-6001

Date: 	   September 25,2009

To: 	     OIG

From: 	   NH

Subject: 	 Comments on OIG Draft Report 09-15,
           Audit ofNARA's Work-At-Home System



          Thank you for the opportunity to comment on this draft report. We concur with the
          recommendations in the draft report and will proceed with an action plan to address them once
          we have received the final report.




          ~::!tty
          Assistant Archivist for Information Services




                                  NARA's web site is http://www.archives.gov
